DOE F 1325.8
(08-93)
United States Government                                                     Department of Energy


memorandum
DATE:          August 11, 2005                                 Audit Report Number: OAS-L-05-11

REPLY TO
ATTN OF:       IG-32 (A05AL005)

SUBJECT:       Audit Report on "Management of the Off-site Sealed Sources Recovery Project"
TO:            Deputy Administrator for Defense Programs (NA-10)
               Deputy Administrator for Defense Nuclear Nonproliferation (NA-20)

               INTRODUCTION AND OBJECTIVE

               The mission of the National Nuclear Security Administration's (NNSA) Off-site
               Recovery Project (OSRP) is to recover unwanted radioactive sealed sources held in the
               public sector, thereby reducing the threat of such sources being used in radiological
               dispersal devices or a "dirty bomb." This recovery mission is part of NNSA's Office of
               Global Radiological Threat Reduction, which is consolidated under the Office of Defense
               Nuclear Nonproliferation. The total number of sealed sources needing recovery in the
               future will be difficult to forecast since OSRP cannot determine when licensees will
               declare the sources as excess and no longer be needed to meet their needs. The objective
               of this audit was to determine whether the OSRP would meet its goal to recover 14,320
               sources before the scheduled project close out in Fiscal Year (FY) 2010.

               CONCLUSIONS AND OBSERVATIONS

               The OSRP was on track to recover 14,320 sealed sources by the year 2010. As of January
               2005, the OSRP had recovered 10,040 sealed sources exceeding its cumulative FY 2004
               performance measure for recovering 8,500 sources. Although it appears that the OSRP will
               meet its goal, we observed an issue regarding the timeliness of recovering Plutonium-239
               (Pu-239) sealed sources.

               We found that the OSRP could not immediately recover Pu-239 sources when they
               became excess and unwanted because of a lack of secure interim storage. In 2002, OSRP
               reached the maximum storage capacity at Los Alamos National Laboratory's (Los
               Alamos) Chemistry and Metallurgy Research building. This delayed Pu-239 recoveries
               for 17. months until Los Alamos and the Nevada Test Site (Nevada) provided additional
storage areas. This additional storage allowed the OSRP to resume Pu-239 recoveries for
nine months. However, OSRP halted recoveries in July 2004 after the additional storage
space had been filled. As a result of these delays, the OSRP has not made any Pu-239
recoveries since July 2004.

Los Alamos and Nevada have since developed plans to provide additional storage for 4,000
grams of Pu-239, but have not completed them. As a result.of our audit, Los Alamos planned
to keep existing Pu-239 at its current location until it can be shipped directly to the Waste
Isolation Pilot Plant (WIPP) and establish a suitable storage container at another secured site
to accommodate 2,000 grams of additional recoveries. Since Los Alamos is the only site
approved to ship Pu-239 sealed sources to WIPP, this additional storage is necessary to move
sources from Nevada to final disposal at WIPP. In March 2005, NNSA directed the Nevada
Site Office to make available 2,000 grams of back-up storage. Nevada plans to make storage
available by moving a portion of their existing inventory to the Device Assembly Facility.
Both Los Alamos and Nevada estimated storage to be available in June 2005; however, as of
August 1, 2005, neither site was able to receive additional Pu-239 sources.

Members of Congress and others have stressed the importance to national security of
recovering and securing unwanted radioactive sources such as Pu-239.

SUGGESTED ACTIONS TO MANAGEMENT

We suggest that the Deputy Administrator for Defense Programs and the Deputy
Administrator for Defense Nuclear Nonproliferation work together to:

   *   Ensure that Los Alamos and Nevada execute plans to provide additional storage
       for Pu-239 to allow OSRP to resume Pu-239 recoveries; and,

   * Establish a process to identify interim storage for all known excess Pu-239
     sources in the OSRP database on a regular basis.

SCOPE AND METHODOLOGY

The audit was performed from January 2005 to June 2005, at NNSA Headquarters;
Sandia National Laboratories; Los Alamos National Laboratory; the Nevada Site Office;
and the Nevada Test Site.

To accomplish the audit objective, we:

   *   Examined OSRP project and strategic plans;

   *   Analyzed OSRP budget data;

   *   Reviewed Department memorandums regarding OSRP;

   *   Reviewed Congressional testimonies and Congressional inquiries;



                                          2
    *   Analyzed OSRP actual sealed source recoveries by year;

    * Reviewed prior Office of Inspector General and General Accountability Office
      audit reports regarding sealed sources; and,

   *    Interviewed NNSA and contractor officials at NNSA Headquarters, Los Alamos
        and Nevada.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective. Because
our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We relied on information
processed on automated data processing equipment to accomplish our audit objective,
and therefore we verified the validity of the automated data processing systems. Finally,
we reviewed the implementation of the Government Performance Results Act of 1993, as
it related to the Off-site Recovery Project.

Since no recommendations are being made in this Letter Report, a formal response is not
required. We appreciate the cooperation of your staff during the audit.




                              SGrge . Collard
                               Assistant Inspector General
                                for Performance Audits
                               Office of the Inspector General

cc: Director, Policy and Internal Controls Management, NA-66
    Team Leader, Audit Liaison Team, ME-100




                                         3
DOE F 1325.8
(08-93)
United States Government                                                             Department of Energy


memorandum
          DATE:    August 11, 2005

   REPLY TO
    ATTN OF:       IG-32 (A05AL005)

     SUBJECT:      Final Report Package for "Management of the Off-site Sealed Sources Recovery Project"

             TO:   Assistant Inspector General for Audit Planning and Administration

                   Attached is the required final report package on the subject audit. The pertinent details are:

                   1. Actual staff days: 201

                      Actual elapsed days: 192

                   2. Names of OIG audit staff:

                       Assistant Division Director: David Sedillo
                       Team Leader: Aldric Hill
                       Auditor-in-Charge: Judy Jew
                       Audit Staff: Joseph Nieto

                   3. Coordination with Investigations and Inspections: The audit was discussed with Adrian
                      Gallegos on 01/06/05 and with Fatima Pashaei, Inspections on 01/06/05.




                                                        orge W. Collard
                                                      Acting Division Director
                                                      National Nuclear Security Administration
                                                       Audits Division
                                                      Office of Inspector General

                   Attachments:

                   1. Monetary Impact Report
                   2. Audit Project Summary Report
                   3. Audit Database Information Sheet
                                   MONETARY IMPACT REPORT

                       MONETARY IMPACT OF REPORT NO.: OAS-L-05-11

1. Title of Audit:      Management of the Off-site Sealed Sources Recovery Project

2. Region/Office:       National Nuclear Security Administration Audit Division /Albuquerque
                        Audit Group

3. EIGPTS No.:          A05AL005

4. Type of Audit
     Financial:                                        Performance:
          Financial Statement                              Economy and Efficiency
          Financial Related              _                 Program Results                        X
      Other (specify type):

5.
                                                                                                        MGT.     POTENTIAL
         FINDING                     BETTER USED                       QUESTIONED COSTS               POSITION    BUDGET
                                                                                                                  IMPACT
                                           Recurring
(A)            (B)           (C)     (D)      (E)      (F)       (G)           (H)         (I)           (J)        (K)
               Title        One     Amount   No.      Total   Questioned   Unsupported    Total       C=Concur     Y=Yes
                            Time     Per     Yrs.    Amount    Portion       Portion                  N=Noncon     N=No
                                     Year                                                             U=Undec


      No Findings                                   None                                  None




TOTALS--ALL FINDINGS


6. Remarks: The Off-site Sealed Sources Recovery Project could not immediately recover Pu-
239 sources when they became excess and unwanted because of delays in final disposal at the
Department's Waste Isolation Pilot Plant and lack of secure interim storage.


7. Contractor:            None                   10. Approvals:
8. Contract No.:          None                         DD & Date             /
9. Task Order No.:        None                         OAS & Date/               /
                                                    Office of the Inspector General                       (OIG)
                                                  Audit Project Office Summary (APS)

                                                                                                                                        Page 1
Report run on:                        August 4, 2005 9:47 AM

  iAudit#: A05AL005                 Ofc: ALA            Title: MANAGEMENT OF THE SEALED SOURCES PROGRAM

                                                                     S****Milestones        ****

                                                        Planned            End of Survey             Revised            Actual


   Entrance Conference:.....                       01-OCT-04                                       13-JAN-05          13-JAN-05

   Survey:.............                    ....                                                    30-JUN-05

   Draft Report:............                                                                       01-SEP-05
   Completed (With Report):.                       30-SEP-05                                                                        (     )
   ------------       Elapsed Days:                        364                                                                203
                                                                                                           Elap. Less Susp:         190
   Date Suspended:                    16-MAR-05                           Date Terminated:
  'Date Reactivated:                  29-MAR-05                           Date Cancelled:
   DaysSuspended(Cur/Tot):                          0 (            13 )Report    Number:
   Rpt Title:                                                             Report Type:                    Not Found




              S ' "                i***«                       Audit codes       and Personnel ****                       '
  ;Class:    PER         PERFORMANCE
  :Function: 005         SAFEGUARDS AND SECURITY
  iMgtChall: 030         NNSA
                                                                                         AD:   152         SEDILLO
   Site:          MSA    MULTI-SITE AUDIT
                                                                                      AIC: 851             JEW
   SecMiss:       HLD    HOMELAND DEFENSE (PE                                    Team Ldr:: 420            J
                                                                                                           HILL
   PresInit: BPI         BUDGET AND PERFORMAN                                    Tech Adv: 84              CROWDER

                                                           *         Task Information ***             '

          Task No:
          Task Order Dt:                                                  CO Tech. Rep:
          Orig Auth Hrs:                                                  Orig Auth Costs:
          Current Auth:                                                   Current Auth Cost:
          Tot Actl IPR Hr:                                                Tot Actl Cost:


                                                               :
                                                                     ;** Time Charges; **' *
                      Enp/Cont Name                 I     mdys'                 Last Date

                      MAXEY, H                                      1.9        09-JUL-05
                      HILL, A                                       2.0        28-MAY-05
                      YOUNG, D                                     13.7        25-JUN-05
                      NIETO, J                                     62.0        23-JUL-05
                      JEW,     J                            118.9              09-JUL-05
                      .Total:                               198.5
                                               Office of the Inspector General (OIG)
                                        Audit Project Office Summary                     (APS)

                                                                                                                   Page 2
Report run on:                     August 4, 2005 9:47 AM




                    NONPROLIFERATION
                    NUCLEAR NONPROLIFERATION

                    NUCLEAR SOURCE RECOVERY

                    OFF-SITE RECOVERY

                    OSR

                    OSRP

                    SEALED SOURCES



                  L
                  '         "         ****      ILocationo    Information ****'
          de   Description

    ALO        NNSA SERVICE CENTER             (OLD:

    LAN        LOS ALAMOS NATIONAL LABOR

    SNL        SANDIA NATIONAL LABORATOR


                                             ****Finding Information *             Bud. Mgt    Dept    ept
       Find
   Find#  ', ' "-          Title        .e•-     •'i•   .•,        Amount . :Yrs   lIp   Pos   Pos    Amount   .    Date
                        Office of the Inspector General (OIG)
                      Audit Project Office Summary (APS)

                                                                Page 3
Report run on:   August 4, 2005 9:47 AM
                         AUDIT DATABASE INFORMATION SHEET


1. Project No.: A05AL005

2. Title of Audit: Management of the Off-site Sealed Sources Recovery Project

3. Report No./Date: OAS-L-05-11 /August 11. 2005

4. Management Challenge Area: Non-proliferation, National Security

5. Presidential Mgmt Initiative: Budget and Performance Integration

6. Secretary Priority/Initiative: National Nuclear Security Administration

7. Program Code: NA-20

8. Location/Sites: NNSA in Germantown, MD and Washington, DC; Los Alamos National
                   Laboratory, in Los Alamos, NM; Sandia National Laboratory, in Albuquerque,
                   NM; Nevada Test Site, in Nevada

9. Finding Summary:


10. Keywords:
      Sealed Source
      Sealed Sources
      Nonproliferation
      OSRP
      OSR
      Off-site recovery
      Sealed source recovery
      Nuclear nonproliferation




                                                                                Page 1
